Colorado Supreme Court
2 East 14th Avenue
Denver, CO 80203

DATE FILED: October 6, 202C

Certiorari to the Court of Appeals, 2018CA2320
District Court, San Miguel County, 2018CV5
Petitioner:
Supreme Court Case No:
2020SC584

Mark Halper,
v.
Respondents:
Linda Moore and Jerry Moore.
ORDER OF COURT

Upon consideration of the Petition for Writ of Certiorari to the Colorado
Court of Appeals and after review of the record, briefs, and the judgment of said
Court of Appeals,
IT IS ORDERED that said Petition for Writ of Certiorari shall be, and the
same hereby is, DENIED.

BY THE COURT, EN BANC, OCTOBER 6, 2020.

18CA2320 Halper v Moore 05-14-2020
COLORADO COURT OF APPEALS

DATE FILED: May 14, 2020

Court of Appeals No. 18CA2320
San Miguel County District Court No. 18CV5
Honorable Mary E. Deganhart, Judge

Mark Halper,
Plaintiff-Appellant,
v.
Jerry Moore and Linda Moore,
Defendants-Appellees.

JUDGMENT AFFIRMED
Division IV
Opinion by JUDGE WELLING
Furman and Pawar, JJ., concur
NOT PUBLISHED PURSUANT TO C.A.R. 35(e)
Announced May 14, 2020

Mark Halper, Pro Se
Robinson Waters & O’Dorisio, P.C., Michael J. Lynch, Tracy A. Ashmore,
Elizabeth Michaels, Denver, Colorado, for Defendants-Appellees

IT 1

Plaintiff-Appellant Mark Halper appeals the district court’s

decision to dismiss his complaint for lack of subject matter
jurisdiction. We affirm.
I.
f2

Background

Halper is the caretaker for a property owned by Sunshine

Mesa, LLC, in San Miguel County. Halper also lives on the
Sunshine Mesa property. Jerry and Linda Moore live on the
adjacent property to the south. The Moores encumbered their
private property with an easement in favor of Sunshine Mesa. This
easement allows Halper limited ingress and egress in order to
access the home on the Sunshine Mesa property. Halper uses the
easement and parks his vehicle and snowmobile in a designed
location in the easement area provided by the Moores.
IT 3

In October 2018, Jerry Moore installed “water bars” — similar

to speedbumps — on his private road, to assist water drainage and
runoff. The water bars extended into the easement area. To
prevent vehicle damage while driving on the water bars, Moore also
placed a warning sign that read, “Danger — Restricted 10 MPH.”
After the water bars and warning sign were placed, Moore also
1

requested that Halper park his vehicle and snow mobile in a
different spot. Moore placed a "no parking” sign and two logs
blocking the space where Halper used to park within the easement
area.
If 4

Halper filed an action against the Moores, seeking relief

pertaining to the easement. Halper specifically complained of the
impediments and obstructions placed in the easement area, as well
as the speed limit signs along that portion of the road. Halper
alleged that the waters bars obstructed his access to the easement
area and created a nuisance for Halper and his guests. The Moores
moved to dismiss the complaint under C.R.C.P. 12(b)(1), alleging
that Halper was not a real party in interest, as required by C.R.C.P.
17(a), with standing to bring an action related to the easement.
h5

The district court granted the motion and dismissed the

complaint on the grounds that Halper lacked standing to bring an
action on an easement.
f6

This appeal followed.
II.

Legal Principles

2

H?

A motion to dismiss under C.R.C.P. 12(b)(1) for lack of subject

matter jurisdiction. We review de novo both a district court’s ruling
on a motion to dismiss, Yadon v. Lowry, 126 P.3d 332, 335 (Colo.
App. 2005) and whether a plaintiff has standing to sue. Ainscough
v. Owens, 90 P.3d 851, 851 (Colo. 2004).
18

Standing is a jurisdictional prerequisite to every case.

Espinosa v. Perez, 165 P.3d 770, 772 (Colo. App. 2006). At the
district court level, the plaintiff bears the burden of proving
jurisdiction. City of Boulder v. Pub. Serv. Co. of Colo., 2018 CO 59,
1 14. In order to have standing to sue, a plaintiff must have both a
legally protected interested and have suffered an injury-in-fact.
Ainscough, 90 P.3d at 855.
19

Only a real party in interest may pursue a cause of action.

C.R.C.P. 17(a). A real party in interest is the party who, by virtue of
the substantive law, has the right to invoke the aid of the court to
vindicate the legal interest in question. Ogunwo v. Am. Nat. Ins.
Co., 936 P.2d 606, 609 (Colo. App. 1997). One who holds the legal
title has a legally protected interest. Koch v. Story, 47 Colo. 335,
338 (1910); Platte Valley Sav. by Resolution Tr. Corp. v. Crall, 821
3

P.2d 305, 307 (Colo. App. 1991). Therefore, only a property owner
is a real party in interest when it comes to enforcing the dominant
parcel’s easement rights. Id.
III.

1 10

Analysis

Halper contends that standing is not dependent on property

ownership. We disagree.
If 11

In order for Halper to bring an action to enforce the easement,

he must have standing. Sinclair Transportation Co. v. Sandberg,
350 P.3d 924, 929 (Colo. App. 2014). In order to have standing,
Halper must demonstrate that he has a legal interest in the
property appurtenant to the easement, protecting against the
injury. Ainscough v. Owens, 90 P.3d 851, 856 (Colo. 2004). The
legally protected interest in an easement is held by the dominant
estate. Lobato v. Taylor, 71, P.3d 938, 945 (Colo. 2002) (concluding
that an easement appurtenant runs with land). Thus, Halper was
required to demonstrate that he has a legal interest arising out of
contract, tort, statute, or other law in the Sunshine Mesa property.
Ainscough, 90 P.3d at 856.

4

1i=

5

!

i

\
s
l

'I

<f[ 12

Halper did not demonstrate the existence of a legal right or .

A

interest in the Sunshine Mesa property. City of Boulder, f 14.
There is no dispute that Halper does not own the property or hold
any legal title to it (nor does he allege that he has any legal interest
in the property). Thus, Halper does not have a protected legal right

; i

or interest in the property, he is not the real party in interest, and
therefore, he lacks standing to ask the court to address the
easement issues he asserts in his complaint.1 Simply put, while
Halper may have the right to utilize the easement, as he has done
for many years, he does not have standing to bring an action to
enforce it. Ainscough, 90 P.3d at 856.
f 13

We conclude that because Halper did not allege facts that

meet the standing requirements of C.R.C.P 17(a), the district court
correctly dismissed his complaint for lack of standing. Hotaling v.

i

In a similar appeal involving different defendants, Halper
challenged the virtually identical ruling of the district court
regarding his lack of standing. See Halper v. Passes, (17CA288,
March 8, 2018) (not published pursuant to C.A.R. 35(e)). The
division in that case concluded that Halper did not hold legal title
and therefore “was not the real party in interest” regarding the same
property. Id. at ^ 24. Thus, the division concluded that the
“district court correctly dismissed [Halper’s complaint]” for failing to
meet the standing requirements of C.R.C.P. 17(a). Id. at ]f 25.
i

5

■

>

A
V.

;

f

;

I

:4£1

